               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-02072-283




    Combined Assessment Program 

              Review of the 

         VA Southern Oregon 

    Rehabilitation Center and Clinics 

          White City, Oregon 





September 11, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



                                              Glossary
                 CAP            Combined Assessment Program
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Southern Oregon Rehabilitation Center and
                                Clinics
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MM             medication management
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 RRTP           residential rehabilitation treatment program
                 SDS            same day surgery
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                   CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  MM – CS Inspection Program .................................................................................                     8

  Continuity of Care ...................................................................................................          10

  Management of Test Results ..................................................................................                   11

  Suicide Prevention Program ...................................................................................                  12

  Management of Workplace Violence ......................................................................                         14

  MH RRTP ...............................................................................................................         15


Appendixes
  A. Facility Profile ....................................................................................................        17

  B. Strategic Analytics for Improvement and Learning ............................................                                18

  C. VISN Director Comments ..................................................................................                    21

  D. Facility Director Comments ...............................................................................                   22

  E. OIG Contact and Staff Acknowledgments .........................................................                              28

  F. Report Distribution .............................................................................................            29

  G. Endnotes ...........................................................................................................         30





VA OIG Office of Healthcare Inspections
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
July 21, 2014.

Review Results:          The review covered eight activities.                     We made no
recommendations in the following activity:

 Management of Workplace Violence

The facility’s reported accomplishment was the development of the Veterans Day
Respite program, which provides socialization to and assists with community integration
of veterans living in rural areas and provides support for their caregivers.

Recommendations: We made recommendations in the following seven activities:
Quality Management: Implement a quality control policy for scanning that includes all
required elements.

Environment of Care: Ensure infection prevention materials are available for eye clinic
patients, visitors, and family members. Store dirty items in the eye clinic away from
patient care areas. Reprocess ophthalmology pachymetry probes in accordance with
manufacturer’s instructions.

Medication Management – Controlled Substances Inspection Program: Amend facility
policy to include that Controlled Substances Coordinators must be free from conflicts of
interest, that controlled substances inspectors must be appointed in writing, and that
annual updates for controlled substances inspectors include problematic issues
identified through external survey findings and other quality control measures. Develop
instructions for inspections of automated dispensing machines.

Continuity of Care: Consistently scan medical information from non-VA hospitalizations
into electronic health records.

Management of Test Results: Notify licensed independent practitioners of critical
laboratory test results/values within the expected timeframe, and document notification
in the electronic health records. Notify patients of normal test results/values within the
expected timeframe, and document notification in the electronic health records.

Suicide Prevention Program: Ensure that safety plans contain documentation of
assessment of available lethal means and ways to keep the environment safe and that
patients and/or their families receive a copy of the safety plan.




VA OIG Office of Healthcare Inspections                                                            i
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Mental Health Residential Rehabilitation Treatment Program:            Ensure written
agreements acknowledging resident responsibility for medication security are in place in
the domiciliary and the Domiciliary Care for Homeless Veterans Program.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 21–27, for the full
text of the Directors’ comments.) We consider recommendations 2 and 3 closed. We
will follow up on the planned actions for the open recommendations until they are
completed.




                                                            JOHN D. DAIGH, JR., M.D. 

                                                           Assistant Inspector General for 

                                                              Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                            ii
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following eight activities:

   	 QM

   	 EOC

   	 MM – CS Inspection Program

   	 Continuity of Care

   	 Management of Test Results

   	 Suicide Prevention Program

   	 Management of Workplace Violence

   	 MH RRTP

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.




VA OIG Office of Healthcare Inspections                                                            1
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
July 24, 2014, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the
VA Southern Oregon Rehabilitation Center and Clinics, White City, Oregon, Report
No. 12-02601-07, October 17, 2012).

During this review, we presented crime awareness briefings for 172 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
282 responded. We shared summarized results with the acting facility Director.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

Veterans Day Respite Program
The facility has expanded services in the Grants Pass, OR, area with the
implementation of an adult day program. The Veterans Day Respite program provides
socialization to and assists with community integration of veterans living in rural areas
who are currently enrolled in VA care, may be at risk of nursing home placement, or are
homebound or socially isolated. VA staff provide an array of activities and supportive
services to the veteran and his or her family. The 5-hour a day program is held in rural
community locations, such as the American Legion hall. Recreational programming is
designed to improve or maintain physical and mental functioning, increase socialization,
and develop leisure skills. Veterans receive snacks and one daily meal along with
certified nursing assistance with activities of daily living. The program serves as respite
for the veteran’s caregiver, who is supported through inclusive programming and a
monthly caregiver support group.




VA OIG Office of Healthcare Inspections                                                            2
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                     3
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


NM               Areas Reviewed (continued)                                     Findings
NA     Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
 NA    Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 NA    The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 NA    The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        Surgical deaths with identified problems or
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
 NA    Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
 X     The policy for scanning non-VA care                 The facility lacked a scanning policy.
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                     4
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


NM              Areas Reviewed (continued)                                     Findings
NA     The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendation

1. We recommended that the facility implement a quality control policy for scanning that
includes all required elements.




VA OIG Office of Healthcare Inspections                                                                     5
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected the primary care clinic, dental clinic, infirmary, and eye clinic. Additionally, we
reviewed relevant documents, and conversed with key employees and managers. The table
below shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM            Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                    
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
          Areas Reviewed for SDS and the PACU
 NA    Designated SDS and PACU employees
       received bloodborne pathogens training
       during the past 12 months.
 NA    Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
 NA    Fire safety requirements in SDS and on the
       PACU were met.
 NA    Environmental safety requirements in SDS
       and on the PACU were met.
 NA    SDS medical laser safety requirements were
       met.




VA OIG Office of Healthcare Inspections                                                                     6
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


NM        Areas Reviewed for SDS and the PACU                                 Findings
                          (continued)
 NA    Infection prevention requirements in SDS and
       on the PACU were met.
 NA    Medication safety and security requirements
       in SDS and on the PACU were met.
 NA    Auditory privacy requirements in SDS and on
       the PACU were met.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
 NA    Designated eye clinic employees received              
       laser safety training with the frequency
       required by local policy.
       Environmental safety requirements in the eye
       clinic were met.
 X     Infection prevention requirements in the eye        The eye clinic had no infection prevention
       clinic were met.                                     educational materials for patients, visitors, or
                                                            family members.
                                                           Dirty items were stored in a patient care area.
                                                           Employees did not reprocess ophthalmology
                                                            pachymetry probes according to
                                                            manufacturer’s instructions.
       Medication safety and security requirements
       in the eye clinic were met.
 NA    Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional             
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

2. We recommended that processes be strengthened to ensure that infection prevention
educational materials are available for eye clinic patients, visitors, and family members.

3. We recommended that processes be strengthened to ensure that dirty items in the eye
clinic are not stored in patient care areas and that compliance be monitored.

4. We recommended that processes be strengthened to ensure that employees reprocess
ophthalmology pachymetry probes in accordance with manufacturer’s instructions and that
compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                        7
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


MM – CS Inspection Program
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.c

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinator, the alternate CS Coordinator, and six CS inspectors and
inspection documentation from two CS areas and the pharmacy. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
 X     Facility policy was consistent with VHA           Facility CS inspection policy reviewed:
       requirements.                                      Facility policy did not address that CS
                                                           Coordinators should not have a connection
                                                           with any component of the CS program, that
                                                           CS inspectors must be appointed in writing,
                                                           and that annual updates for CS inspectors
                                                           should include problematic issues identified
                                                           through external survey findings and other
                                                           quality control measures.
      VA police conducted annual physical security
      surveys of the pharmacy, and any identified
      deficiencies were corrected.
 X    Instructions for inspecting automated               Instructions for inspecting automated
      dispensing machines were documented,                 dispensing machines had not been
      included all required elements, and were             developed.
      followed.
      Monthly CS inspection findings summaries
      and quarterly trend reports were provided to
      the facility Director.
      CS Coordinator position description(s) or
      functional statement(s) included duties, and
      CS Coordinator(s) completed required
      certification and were free from conflicts of
      interest.
      CS Inspectors were appointed in writing, were
      limited to 3-year terms, completed required
      certification and training, and were free from
      conflicts of interest.
      Non-pharmacy areas with CS were inspected
      in accordance with VHA requirements, and
      inspections included all required elements.
      Pharmacy CS Inspections were conducted in
      accordance with VHA requirements and
      included all required elements.
      The facility complied with any additional
      elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     8
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Recommendations

5. We recommended that facility policy be amended to include that Controlled Substances
Coordinators must be free from conflicts of interest, that controlled substances inspectors must
be appointed in writing, and that annual updates for controlled substances inspectors include
problematic issues identified through external survey findings and other quality control
measures.

6. We recommended that the facility develop instructions for inspections of automated
dispensing machines.




VA OIG Office of Healthcare Inspections                                                                     9
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Continuity of Care
The purpose of this review was to evaluate whether clinical information from patients’
community hospitalizations at VA expense was scanned and available to facility providers and
whether providers documented acknowledgement of it.d Such information is essential to
coordination of care and optimal patient outcomes.

We reviewed relevant documents and the EHRs of 30 patients who had been hospitalized at VA
expense in the local community from February 1, 2013, through February 1, 2014. The table
below shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                    Areas Reviewed                                          Findings
 X     Clinical information was consistently available     Medical information from 23 patients’ non-VA
       to the primary care team for the clinic visit        hospitalizations (77 percent) was not scanned
       subsequent to the non-VA hospitalization.            into the EHRs.
       Members of the patients’ primary care teams
       documented that they were aware of the
       patients’ non-VA hospitalization.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

7. We recommended that processes be strengthened to ensure that the medical information
from non-VA hospitalizations is consistently scanned into the electronic health records and that
compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    10
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Management of Test Results
The purpose of this review was to evaluate whether the facility complied with selected
requirements for managing test results.e

We reviewed relevant policies and procedures and the EHRs of 12 patients who had critical
laboratory or abnormal cytology test results/values in FY 2014 (10 for laboratory and 2 for
cytology). In addition, we reviewed the EHRs of 30 patients who had normal laboratory,
radiology, or Pap smear results/values. We also conversed with key employees.    The table
below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM                    Areas Reviewed                                          Findings
      The facility had a written policy or guideline
      that addressed the management of critical/
      abnormal test results/values, and compliance
      was monitored.
 X    Providers were notified of critical/abnormal test    Four of the 10 critical laboratory results/values
      results/values by appropriate staff within the        were reported to non-licensed independent
      expected timeframe.                                   practitioners.
                                                           Four of the 10 EHRs of patients with critical
                                                            laboratory results/values did not contain
                                                            documentation of notification to a licensed
                                                            independent practitioner within the facility’s
                                                            expected timeframe of 30 minutes.
      Patients were notified of critical/abnormal test
      results/values within the expected timeframe
      and by the approved method of
      communication.
      Follow-up actions were taken in response to
      critical/abnormal test results/values.
 X    Patients were notified of normal test                Two of the 10 EHRs of patients with normal
      results/values within the expected timeframe.         laboratory results did not contain
                                                            documentation of patient notification.
      The facility complied with any additional
      elements required by VHA or local policy.

Recommendations

8. We recommended that processes be strengthened to ensure that licensed independent
practitioners are notified of critical laboratory test results/values within the expected timeframe
and that notification is documented in the electronic health records and that compliance be
monitored.

9. We recommended that processes be strengthened to ensure that all patients are notified of
normal test results/values within the expected timeframe and that notification is documented in
the electronic health records and that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                    11
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Suicide Prevention Program
The purpose of this review was to evaluate the extent to which the facility’s MH providers
consistently complied with selected suicide prevention program requirements.f

We reviewed relevant documents and conversed with key employees. We also reviewed the
EHRs of 30 patients assessed to be at high risk for suicide and the training records of 15 new
employees. The table below shows the areas reviewed for this topic. The areas marked as NM
did not meet applicable requirements and needed improvement. Any items that did not apply to
this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       The facility had a full-time Suicide Prevention
       Coordinator and a plan for back-up.
       The facility had a process for responding to
       referrals from the Veterans Crisis Line and for
       identifying and tracking patients who are at
       high risk for suicide.
       The facility provided suicide prevention
       training to new staff and community
       organizations.
       The facility issued required reports regarding
       any patients who attempted or completed
       suicide within the past 12 months.
       The facility had a process to follow up on
       patients who missed MH appointments.
       Patients had documented safety plans that
       specifically addressed suicidality.
       Patients and/or their families participated in
       safety plan development.
 X     Safety plans contained all required elements.       Five safety plans (17 percent) lacked
                                                            documentation of assessment of available
                                                            lethal means and ways to make the
                                                            environment safe.
 X     There was documented evidence that the              Six patients’ EHRs (20 percent) did not
       patients and/or their families received a copy       contain documentation that the patients
       of the safety plan.                                  and/or their families received a copy of the
                                                            plan.
       Patient Record Flags were placed for high-risk
       patients.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that safety plans contain
documentation of assessment of available lethal means and ways to keep the environment safe
and that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                    12
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


11. We recommended that processes be strengthened to ensure that patients and/or their
families receive a copy of the safety plan and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    13
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Management of Workplace Violence
The purpose of this review was to determine the extent to which the facility managed violent
incidents.g

We reviewed relevant documents, 2 Reports of Contact from disruptive patient/employee/other
(visitor) incidents that occurred during the 18-month period January 2013–July 2014, and
15 training records of employees  who worked in areas at low, moderate, or high risk for
violence. Additionally, we conversed with key employees. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                     Areas Reviewed                                         Findings
       The facility had policies, procedures, or
       guidelines on preventing and managing
       violent behavior.
       The facility conducted a Workplace Behavioral
       Risk Assessment to designate high-risk areas.
       The facility had an Employee Threat
       Assessment Team, a Disruptive Behavior
       Committee/Board, and a prevention and
       management of disruptive behavior program
       disruptive behavior reporting and tracking
       system.
       The facility used and tested appropriate
       physical security precautions and equipment
       in accordance with the local risk assessment.
       The facility had an employee training plan that
       addressed the security issues of awareness,
       preparedness, precautions, and police
       assistance, and employees received the
       training defined in the plan.
       Selected incidents were managed
       appropriately according to the facility’s
       policies.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    14
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


MH RRTP
The purpose of this review was to determine whether the facility’s domiciliary and Domiciliary
Care for Homeless Veterans Program complied with selected EOC requirements.h

We reviewed relevant documents, inspected the domiciliary and Domiciliary Care for Homeless
Veterans Program, and conversed with key employees. The table below shows the areas
reviewed for this topic. The area marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       The residential environment was clean and in
       good repair.
NA     Appropriate fire extinguishers were available
       near grease producing cooking devices.
       There were policies/procedures that
       addressed safe MM and contraband
       detection.
       Monthly MH RRTP self-inspections were
       conducted, documented, and included all
       required elements; work orders were
       submitted for items needing repair; and any
       identified deficiencies were corrected.
       Contraband inspections, staff rounds of all
       public spaces, daily bed checks, and resident
       room inspections for unsecured medications
       were conducted and documented.
 X     Written agreements acknowledging resident           Written agreements were not in place in the
       responsibility for medication security were in       domiciliary and the Domiciliary Care for
       place.                                               Homeless Veterans Program.
       The main point(s) of entry had keyless entry
       and closed circuit television monitoring, and
       all other doors were locked to the outside and
       alarmed.
       Closed circuit television monitors with
       recording capability were installed in public
       areas but not in treatment areas or private
       spaces, and there was signage alerting
       veterans and visitors that they were being
       recorded.
       There was a process for responding to
       behavioral health and medical emergencies,
       and staff were able to articulate the
       process(es).
NA     In mixed gender units, women veterans’
       rooms were equipped with keyless entry or
       door locks, and bathrooms were equipped
       with door locks.




VA OIG Office of Healthcare Inspections                                                                    15
                        CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


NM             Areas Reviewed (continued)                                     Findings
       Medications in resident rooms were secured.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

12. We recommended that processes be strengthened to ensure that written agreements
acknowledging resident responsibility for medication security are in place in the domiciliary and
the Domiciliary Care for Homeless Veterans Program and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    16
                   CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                            Appendix A


    Facility Profile (White City/692) FY 2014 through June 20141
Type of Organization                                                           Secondary
Complexity Level                                                               3-Low complexity
Affiliated/Non-Affiliated                                                      Affiliated
Total Medical Care Budget in Millions                                          $95.7
Number (as of July 2014) of:
    Unique Patients                                                           16,465
    Outpatient Visits                                                         181,453
    Unique Employees2                                                         503
Type and Number of Operating Beds:
    Hospital                                                                  NA
    CLC                                                                       NA
    MH                                                                        525
Average Daily Census:
    Hospital                                                                  NA
    CLC                                                                       NA
    MH                                                                        438
Number of Community Based Outpatient Clinics                                   2
Location(s)/Station Number(s)                                                  Klamath Falls/692GA
                                                                               Grants Pass/692GB
VISN Number                                                                    20




1
    All data is for FY 2014 through June 2014 except where noted.
2
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                               17
                                                    CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                                                             Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                                18
                                           CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                       19
                                                                              CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


                                                                         Metric Definitions
 Measure                       Definition                                                                                   Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)            A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                      A lower value is better than a higher value
 Best Place to Work            Overall satisfaction with job                                                                A higher value is better than a lower value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                                   A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                         A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                                  A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)               A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                                A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                            A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                       A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                         A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics; FY13 and later)               A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                         A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)            A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics; FY13 and later)     A higher value is better than a lower value
 PSI                           Patient safety indicator (observed to expected ratio)                                        A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                             A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                               A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                      A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                         A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                        A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                    A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                       A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                      A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                          A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                               A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics; FY13 and later)   A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                                   20
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                        Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:       August 28, 2014

          From:        Director, Northwest Network (10N20)

       Subject: 	      CAP Review of the VA Southern Oregon Rehabilitation
                       Center and Clinics, White City, OR

             To:       Director, Seattle Office of Healthcare Inspections (54SE)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. Thank 	you for the opportunity to respond to the proposed
          recommendations from the Combined Assessment Program Review at
          the VA Southern Oregon Rehabilitation Center and Clinics, White City,
          OR.

       2. Attached please find the facility concurrences and responses to each
          of the findings from the review.

       3. If you have additional questions or need further information, please
          contact Susan Green, Survey Coordinator, VISN 20 at (360) 567-4678.


             (original signed by:)
           Lawrence H. Carroll




VA OIG Office of Healthcare Inspections                                                           21
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                        Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:       August 20, 2014

          From: 	      Director, VA Southern Oregon Rehabilitation Center and
                       Clinics (692/00)

       Subject: 	      CAP Review of the VA Southern Oregon Rehabilitation
                       Center and Clinics, White City, OR

             To:       Director, Northwest Network (10N20)

       1. On behalf of the VA Southern Oregon Rehabilitation Center & Clinics
          (SORCC), White City Oregon. I would like to express my appreciation
          to the Office of Inspector General (OIG) Survey Team for their
          professionalism while completing the Combined Assessment Program
          (CAP) review conducted the week of July 21st, 2014.

       2. We have reviewed and concurred with the findings from this report and
          have added SORCC’s responses addressing each recommendation.

       3. If you have any further questions regarding this report, please contact
          our Chief of Quality Management, Laurie Petersen at (541) 826-2111,
          extension 3625.




           B. Don Burman




VA OIG Office of Healthcare Inspections                                                           22
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the facility implement a quality control
policy for scanning that includes all required elements.

Concur

Target date for completion: March 1, 2015

Facility response: Our facility has been approved to pilot a scanning unit with two Term
scanning clerks who will be trained to scan all paper documents being incorporated into
the electronic health record. This process is currently done in a decentralized fashion.
The new protocol will be for the clerk to scan, self-verify accuracy on 100% of all
scanned documents, stamp the document “scanned,” and file for Quality Assurance
(QA) review. The Lead Medical Record Tech will monitor 10% of scanned documents
on a monthly basis, provide feedback to the scanning clerks and Health Information
Management Service (HIMS) Chief, and shred the documents upon completion of the
QA review. Scanning QA results will be reported to the Health Information Management
Committee (HIMC) on a monthly basis and rolled up to Quality Leadership Committee
(QLC) quarterly. Existing medical center memorandums will be modified to reflect this
change to scanning protocol.

Recommendation 2. We recommended that processes be strengthened to ensure that
infection prevention educational materials are available for eye clinic patients, visitors,
and family members.

Concur

Target date for completion: August 23, 2014

Facility response: Our Infection Prevention Program immediately installed a wall
brochure holder in the Eye Clinic and filled it with infection prevention educational
materials for patients, visitors and family members.

Recommendation 3. We recommended that processes be strengthened to ensure that
dirty items in the eye clinic are not stored in patient care areas and that compliance be
monitored.

Concur

Target date for completion: August 29, 2014



VA OIG Office of Healthcare Inspections                                                           23
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Facility response: The housekeeping closet in Optometry will be converted to dirty utility
room.  

Recommendation 4. We recommended that processes be strengthened to ensure that
employees reprocess ophthalmology pachymetry probes in accordance with
manufacturer’s instructions and that compliance be monitored.

Concur

Target date for completion: September 15, 2014

Facility response: The standard operation procedure (SOP) for pachymeter probe
reprocessing has been revised to reflect manufacturer instructions. This SOP has been
strengthened by including the specific instructions outlined by the manufacturer. Supply
Processing Service (SPS) staff will be retrained in the new SOP and staff must
demonstrate 100% competency by supervisor observation and documentation.
Sustainability will be demonstrated through observation and supervisory documentation
assuring staff are adhering to new SOP.

Recommendation 5. We recommended that facility policy be amended to include that
Controlled Substances Coordinators must be free from conflicts of interest, that
controlled substances inspectors must be appointed in writing, and that annual updates
for controlled substances inspectors include problematic issues identified through
external survey findings and other quality control measures.

Concur

Target date for completion: September 19, 2014

Facility response: Facility policy Inspection of Controlled Substance (MCM 11-002) will
be amended to include:

(a) The Control Substances Coordinators are free from conflicts of interest;
(b) Control Substance Inspectors are appointed in writing by the Director; and
(c) Annual updates for Control Substance Inspectors include problematic issues
    identified through external survey findings and other quality control measures.

Recommendation 6. We recommended that the facility develop instructions for
inspections of automated dispensing machines.

Concur

Target date for completion: September 19, 2014

Facility   response:      Facility  policy   Inspection  of    Controlled Substance
(MCM 11-002 Attachment A, Inspection Memorandum) will be updated to reflect
instructions for inspections of automated dispensing machines.



VA OIG Office of Healthcare Inspections                                                           24
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Recommendation 7. We recommended that processes be strengthened to ensure that
the medical information from non-VA hospitalizations is consistently scanned into the
electronic health records and that compliance be monitored.

Concur

Target date for completion: March 1, 2015

Facility response: We will assure that non-VA hospitalizations are consistently scanned
into the electronic health records by increasing the number of facility scanners to
complete the scanning. The facility will rely on the VHA Handbook 1907.01 Health
Information Management and Health Records and VHA Directive 6300 Records
Management as the framework to develop a facility protocol that outlines the process.
This protocol will be approved by the Health Information Management Committee
(HIMC) prior to implementation. In addition, Clinical and Business Office Staff will
attend mandatory education.        The anticipated date of implementation will be
January 1, 2015. An audit of 15 random scanned medical records will be completed
monthly and results reported to the HIMC and then rolled to Quality Leadership
Committee quarterly.

Recommendation 8. We recommended that processes be strengthened to ensure that
licensed independent practitioners are notified of critical laboratory test results/values
within the expected timeframe and that notification is documented in the electronic
health records and that compliance be monitored.

Concur

Target date for completion: March 1, 2015

Facility response: We will review and update our policy regarding Ordering and
Reporting Test Results and Nursing Protocols. We will educate staff on the revised
practices by distributing educational electronic messages, verbal communication and
provide education in the monthly clinical staff meetings. Compliance will be monitored
by doing 15 random medical records reviews per month to assure that messages are
ultimately received by our License Independent Practitioners (LIP) and that this relay of
information to LIPs occurs within the designated time frame. We will monitor for
sustained improvement and report these results to the Medical Executive Committee
(MEC) monthly and once the facility can assure 90% compliance the monitoring results
will be reported to MEC quarterly.

Recommendation 9. We recommended that processes be strengthened to ensure that
all patients are notified of normal test results/values within the expected timeframe and
that notification is documented in the electronic health records and that compliance be
monitored.

Concur

Target date for completion: March 1, 2015


VA OIG Office of Healthcare Inspections                                                           25
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Facility response: We will review and strengthen our processes to ensure that all
patients are notified of test results within the expected time frame according to the type
of study and the acuity of the result. We will follow the guidelines stated in our policy for
Ordering and Reporting Test Results. We will continue to educate staff on these
processes by distributing educational electronic messages, verbal communication and
education in the monthly clinical staff meetings. Compliance will be monitored by doing
15 random medical record reviews per month and report our results to the Medical
Executive Committee to confirm the communication of information to Veterans occurs
within the designated time frame. We will monitor for sustained improvement and relay
these results in 6 months.

Recommendation 10. We recommended that processes be strengthened to ensure
that safety plans contain documentation of assessment of available lethal means and
ways to keep the environment safe and that compliance be monitored.

Concur

Target date for completion: February 1, 2015

Facility response: The CPRS Suicide Safety Plan template will clarify what Means
Restrictions need to occur and include the verbiage “Assessment of available lethal
means and ways to keep the environment safe” as a mandatory text item. Staff will not
be able to close the template until they have addressed the means restriction(s) with the
Veteran. The Suicide Prevention Coordinator will train Mental Health Service line staff
at department staff meetings by the end of October and the new process will
implemented immediately. To ensure sustainability, we will randomly audit 20 medical
records monthly to assure 90% compliance and report the results to the Rehabilitation
Executive Committee.

Recommendation 11. We recommended that processes be strengthened to ensure
that patients and/or their families receive a copy of the safety plan and that compliance
be monitored.

Concur

Target date for completion: February 1, 2015

Facility response: The CPRS Suicide Safety Plan template will be updated and it will
have the restriction(s) so that it cannot be signed or closed, unless the author
addresses the reminder dialogue box which states “Veteran/family member given a
copy of this plan.” Our Suicide Prevention Coordinator will present at Mental Health
Service Line Staff meetings through October. To ensure sustainability, we will randomly
audit 20 medical records monthly to assure 90% compliance and report the results to
the Rehabilitation Executive Committee.




VA OIG Office of Healthcare Inspections                                                           26
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Recommendation 12. We recommended that processes be strengthened to ensure
that written agreements acknowledging resident responsibility for medication security
are in place in the domiciliary and the Domiciliary Care for Homeless Veterans Program
and that compliance be monitored.

Concur

Target date for completion: August 22, 2014

Facility response: The statement “Veterans are responsible to secure their own
medications” has been added to the Admission Agreement to ensure that written
agreements acknowledge the resident’s responsibility for medication security. The
Veteran will sign the iMed consent indicating that he/she has received this information.
This responsibility is also included in the Facility Orientation and Section Orientation
provided by the Admission staff and the Residential Care staff. Documentation of the
education is now included in the admissions template for the medical record.




VA OIG Office of Healthcare Inspections                                                           27
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Susan Tostenrude, MS, Team Leader
Contributors            Carol Lukasewicz, RN, BSN
                        Sarah Mainzer, RN, JD
                        Sami O’Neill, MA
                        Mary Noel Rees, MPA
                        Robert Sproull, Resident Agent in Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                           28
               CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Northwest Network (10N20)
Director, VA Southern Oregon Rehabilitation Center and Clinics (692/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Merkley, Ron Wyden
U.S. House of Representatives: Peter DeFazio, Greg Walden


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                           29
                    CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                             Appendix G

                                                 Endnotes

a
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
    References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
    Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
    American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
    and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
d
   The references used for this topic were:
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Various requirements of the Joint Commission.
e
   References used for this topic were:
 VHA Directive 2009-019, Ordering and Reporting Test Results, March 24, 2009.
 VHA Directive 1106, Pathology and Laboratory Medicine Service, April 5, 2013.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
 Various requirements of the Joint Commission.
f
   References used for this topic included:
	 VHA Directive 2008-036, Use of Patient Record Flags to Identify Patients at High Risk for Suicide,
    July 18, 2008.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Patients at High Risk for Suicide,”
    memorandum, April 24, 2008.
	 Various requirements of the Joint Commission.




VA OIG Office of Healthcare Inspections                                                                           30
                CAP Review of the VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



g
  References used for this topic were:
	 VHA Directive 2009-008 (also listed as 2010-008), Standards for Mental Health Coverage in Emergency
   Departments and Urgent Care Clinics in VHA Facilities, February 22, 2010. 
	 VHA Directive 2012-026, Sexual Assaults and Other Defined Public Safety Incidents in Veterans Health
   Administration (VHA) Facilities, September 27, 2012.
	 Under Secretary for Health, “Violent Behavior Prevention Program,” Information Letter 10-97-006,
   February 3, 1997.
 Various requirements of the Occupational Safety and Health Administration.
h
  References used for this topic were:
	 VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program (MH RRTP),
   December 22, 2010.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 Requirements of the VHA Center for Engineering and Occupational Safety and Health and the National Fire
   Protection Association.




VA OIG Office of Healthcare Inspections                                                                      31
